TN

OCKLE

2311 Douglas Street CA 2 E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga I Brie fs

Est ats contact@cocklelegalbriefs.com
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-

RAYMOND HOLLOWAY, JR.,
Petitioner,
v.
WILLIAM P. BARR, ATTORNEY GENERAL, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 4832 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of December, 2020.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL NOTARY State of Nebraska Kone 9, /) / A CLL
RENEE J. GOSS 9. ‘.
Notary Public

My Comm. Exp. September 5, 2023
Affiant

 

40060
